No:
In the
Supreme Court of the United States
ALEX McCOY,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
PROOF OF SERVICE
I, Alex McCoy, do swear declare that on this day,

day of September

2020, as required by Supreme Court Rule 29,1 have served the enclosed Motion
for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari, on the
Solicitor General of the United States, Room 5614, Department of Justice, 10th
Street and Constitution Ave., N.W., Washington, D.C. 20530, and every other
person required to be served, by depositing the same in the Prison’s Legal Mail
Box with sufficient First Class Prepaid Postage.

k£^L
Alex McCoy
Register Number 22496-058
FCI Loretto
P. O. Box 1000
Cresson, Pennsylvania 16630

